  Department of Health and Human Services
          OFFICE OF
     INSPECTOR GENERAL




HOSPICE   PATIENTS   IN NURSING           HOMES 





                     JUNE GIBBS BROWN
                     Inspector General

                       SEPTEMBER 1997
                        OEI-05-95-00250
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95
452, is to protect the integrity of the Department of Health and Human Services
programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary
of program and management problems and recommends legislative, regulatory, and
operational approaches to correct them.



                       Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the 

Office of Inspector General. It conducts short-term management and program 

evaluations (called inspections) that focus on issues of concern to the Department, the 

Congress, and the public. The inspection reports provide findings and 

recommendations on the efficiency, vulnerability, and effectiveness of departmental 

programs. 


OEI’s Chicago Regional Office prepared this report under the direction of William C. 

Moran, Regional Inspector General, and Natalie Coen, Deputy Regional Inspector 

General. Principal OEI staff included: 


REGION                                           HEADOUARTERS 

Thomas Komaniecki                                Stuart Wright 

John Traczyk                                     Barbara Tedesco 

Margarita Rodriguez                              Brian Ritchie 

Edward Sczempruch                                Linda Moscoe 


To obtain a copy of this report, call the Chicago Regional Office at (312) 353-4124 

              EXECUTIVE                        SUMMARY

PURPOSE

To examine eligibility, services and growth in the number of hospice patients living in
nursing homes.

BACKGROUND

Hospice care is an approach to treatment that recognizes the impending death of an
individual warrants a change in focus from curative to palliative care. The Medicare
hospice benefit began in 1983. In 1986, nursing home patients could elect Medicare’s
hospice benefit. Congress repealed the hospice benefit’s 210 day limit effective for
services furnished on or after January, 1 1990.

Earlier Office of Inspector General work on nursing home patients raised questions
about hospice services provided to these patients. This earlier work led to our
undertaking this study.

FINDINGS

Lower frequency of services, the overlap of services and the questionable enrollment
in hospice by nursing home patients suggest that current payment levels for hospice
care in nursing homes may be excessive.

Nursing home hospice patients received nearly 46 percent fewer nursing and aide
services from hospice staff than hospice patients living at home. Three out of four
patients received only basic nursing and aide visits. Many of these services were also
provided by the nursing home staff when hospice staff were not present. Yet, hospices
get paid the same amount for nursing home patients as they receive for patients living
at home. In addition, two different sets of medical reviewers disagreed with the
hospice’s initial prognosis in nearly one out of six patients.

Continued growth in Medicare hospice expenditures for nursing home patients is
expected.

In 1995, we estimate that 17 percent of Medicare hospice patients lived in a nursing
home. About 1 percent of nursing home patients in 1996 elected the hospice benefit.
Nursing home patients are seen by hospices as an effective way of expansion. The
repeal of the 210 day limit on hospice care also provided hospices with additional
incentives to serve nursing home patients.
RECOMMENDATION

Medicare’s hospice benefit was intended to allow patients a choice in determining the
intensity of medical care in their last 6 months of life. Since 1986, hospice patients
could receive hospice care either in their home or a medical facility, including nursing
homes. This inspection revealed problems and raised potential questions about
hospice care provided to nursing home patients. Hospices receive the same daily
reimbursement from Medicare for nursing home patients as they would receive for
patients living at home, even though hospices provide fewer services in the nursing
home setting.

The inspection also raised questions about the potential for growth in Medicare
expenditures for nursing home patients. It also identified incentives which may
financially reward hospices for premature elections by patients of the hospice benefit.
The Balanced Budget Act of 1997, enacted after publication of our draft report,
begins to address some of these problems by requiring periodic recertification of
eligibility.

To address our findings, we recommend that the Health Care Financing
Administration (HCFA) seek legislation to:

  0    Modify Medicare or Medicaid payments for hospice patients living in nursing
       homes.

These modifications can include but are not limited to lowering hospice payments for
patients who reside in nursing homes or revising requirements for services provided by
nursing homes for terminal patients.

We suggest that representatives from the nursing home and hospice industry along
with HCFA work in a collaborative manner to develop additional options to preserve
and enhance hospice care for those who need it when living in a nursing home.

AGENCY     COMMENTS

We received comments from the Health Care Financing Administration, the Assistant
Secretary for Planning and Evaluation and the Assistant Secretary for Management
and Budget. We also solicited and received comments on the draft report from the
National Hospice Organization and the Hospice Association of America. We have
made changes based on these comments and have consolidated our first three draft
findings into one.

An underlying theme to the comments was a belief that it was inappropriate to
recommend eliminating Medicare’s hospice benefit for patients living in nursing
homes. However, there was general agreement on the need to examine Medicare and
Medicaid payment for hospice patients living in nursing homes and to clarify the
future role of nursing home staff in providing palliative care for patients with terminal


                                            ii
diagnoses.

We have changed our first recommendation to remove the suggestion of eliminating
entirely Medicare or Medicaid funding but to reflect that some modification of the
hospice benefit for patients living in nursing homes is necessary. In addition, as noted
earlier, legislation was enacted to address a second recommendation which we had
included in our draft report on modifying the current benefit structure in the fourth
benefit period. Because of this, we have dropped this recommendation from the final
report.

The full text of the comments received on this report are included in Appendix C.
While they sometimes take issue with our own analysis, we believe they provide
valuable insights on the hospice program and nursing home care. We regard them as
an integral part of the report and recommend them to the attention of the reader.




                                           ...
                                           111
                         TABLE                          OF                CONTENTS

                                                                                                                         PAGE

ExEcIuTIvEsuMMARY

INTRODUCTION..                   ...............................................                                             1


FINDINGS         ......................................................                                                      6


  �    Hospice payments for nursing home patients may be excessive                                       .............       6


  �    Continued growth in hospice expenditures expected                              .....................                  9


RECOMMENDATION                         ............................................                                         13 


APPENDICES..               ...................................................

A: Methodology             ................................................                                                A-l

B: Confidence Intervals ...........................................                                                        B-l

C: Agency Comments                  ............................................                                           C-l
                         INTRODUCTION

PURPOSE

To examine eligibility, services and growth in the number of hospice patients living in
nursing homes.

BACKGROUND

Hmpice Care

Hospice care is an approach to treatment that recognizes the impending death of an
individual and warrants a change in focus from curative to palliative care. The goal of
hospice care is to help terminally ill individuals continue life with minimal disruption
to normal activities while remaining primarily in a home environment.

The Medicare hospice benefit began in 1983. To qualify, a patient must be eligible for
Medicare and be certified as terminally ill with a life expectancy of 6 months or less if
the terminal condition runs its normal course. Medicare recognizes four levels of
hospice care: routine home care, continuous home care, general inpatient care and
respite care. The vast majority of patients enrolled in hospice receive routine home
care.

In most cases Medicare pays the hospice a fixed amount, depending on the level of
care a patient needs, for each day that a patient is under their care. Medicare
expenditures for hospice care have increased significantly from $77 million in 1986,
when the benefit was permanently established, to more than $1.8 billion in 1995.

Currently, Medicare’s hospice benefit provides a patient with four benefit periods.
The first period and subsequent period are limited to 90 days each. The third benefit
period is limited to 30 days. A fourth benefit period is unlimited in duration. If a
patient revokes their hospice election, the patient loses his or her remaining days in
that hospice benefit period. If a patient revokes their hospice election in the fourth
benefit period, the patient would no longer be eligible for Medicare’s hospice benefit.

Medicare patients enrolled in the hospice program waive coverage of all curative
medical services related to the treatment of their terminal illness. The hospice
assumes responsibility for all of the patient’s medical needs related to their terminal
illness. However, Medicare will continue to pay for services furnished by the patient’s
non-hospice attending physician and for the treatment of conditions unrelated to the
terminal illness.




                                            1

Hospice Care in Nursing Homes

Beginning in 1986, terminally ill Medicare patients living in nursing homes could elect 

Medicare’s hospice benefit. When this occurs, the hospice assumes responsibility for 

the professional management of the patient’s medical care for the terminal condition. 

The nursing home continues to provide the patient’s room and board and other 

services. Room and board includes personal care services, assistance in the activities 

of daily living, socializing activities, administration of medication and other activities. 


When a patient is entitled to both     Figure 1 

Medicaid and Medicare, the 

nursing home no longer bills the 

State Medicaid program for that            plow Chart for Medicare / Medicaid Payment for
patient’s long-term care. Instead,         Hospice Patients Residing in Nursing Facilities
the nursing home bills and receives
payment from the hospice. The
hospice then bills the State
Medicaid agency for the patient’s
room and board. The State
Medicaid agency must pay the
                                                                                        l%using
hospice at least 95 percent of what                                                     Hame
Medicaid would have paid the
nursing home. The hospice pays
the nursing home, depending on
the terms of the contract that exist
between a nursing home and
hospice, for services provided to
the hospice patient. Medicaid
payments for room and board are in addition to Medicare’s daily fixed rate paid to the
hospice. Figure 1 illustrates how payments are made for nursing home care provided
to patients who are dually entitled to both Medicare and Medicaid.

Ojjice of Inspector General Wodc

Earlier Office of Inspector General (OIG) work on nursing home patients raised
questions about hospice services provided to these patients. This earlier work led to
our undertaking this study.

In 1995, a joint initiative referred to as Operation Restore Trust (ORT) was
established between OIG, the Health Care Financing Administration (HCFA) and the
Administration on Aging. Among its objectives, Project ORT seeks to identify
vulnerabilities in the Medicare program and develop solutions that would reduce
Medicare’s exposure to fraud, abuse and waste. Project ORT targeted five States
(California, Florida, Illinois, New York and Texas) that account for approximately 40
percent of Medicare expenditures and beneficiaries. These projects focus on home
health care, nursing home care, durable medical equipment and hospice care.


                                               2
In 1994, OIG conducted reviews in Puerto Rico, examining medical eligibility for
hospice. These targeted audits were expanded under Project ORT and led to in-depth
OIG audits of 12 hospice providers and a summary report. In conjunction with these
targeted hospice reviews, additional OIG studies have and are being conducted in an
effort to obtain national data concerning the hospice benefit.

Recent L&.dation

The Balanced Budget Act of 1997 resulted in numerous modifications of Medicare’s
hospice benefit. These modifications ranged from changing how a hospice can bill for
services to a new requirement for more frequent certifications of eligiblity after 180
days of hospice care.

scope
We limited our inspection to nursing home patients receiving routine home care under
the hospice benefit in December 1995. An analysis of our data showed that 94
percent of hospice patients received routine home care. Our findings do not relate to
those few hospice patients receiving either continuous home care, general inpatient
care or respite care. In our inspection, we also limited our discussion primarily to
services provided to the patient. Our reviewers did capture visits made by hospice
staff to family members which we have reported but do not make judgements about.

METHODOLOGY

Sampling Design

We used a stratified cluster sample to select hospices and hospice patients. We
identified hospices that were Medicare certified before July 1, 1995. We eliminated
hospices from our universe where there was previous or continuing OIG work.

We used six strata. One stratum was created for each of the five Project ORT States.
The sixth stratum contained all of the remaining States. From each stratum we
selected six hospices at random.

Initial Sample

We sent each hospice a letter requesting that they identify all Medicare patients who
received hospice services in December 1995. We also requested that the hospices
identify whether patients were entitled to Medicaid and whether patients were
residents of a nursing home.

We received responses from 31 of the 36 hospices selected. Of the five missing
responses, two hospices were identified as sites included in other OIG work. One was
sold and notified us that they could not provide the documentation within our time
frame. One hospice did respond with information but it was received after our


                                           3
deadline.   After repeated attempts, we did not receive any information      from the fifth
hospice.

Our sampling frame was patients receiving routine home care during December 1995.
A total of 1,592 patients were initially identified as having received at least 1 day of
hospice care during December 1995. Of these patients, 329 were identified as living in
a nursing home while receiving hospice services. Of the 31 hospices in our sample, 22
had patients who lived in a nursing home while receiving hospice services. See
Appendix A for further information on our methodology.

After obtaining    claims information on patients identified   by the hospice, we refined
our sample by     eliminating patients who received services   other than routine home care
from hospice.     This resulted in 94 patients being dropped     from our universe of 1,592
patients. This    also reduced the number of nursing home       patients in our sample from
329 to 315.

Medical Revkw Sample

For hospices with 35 or fewer patients living in     nursing homes, we selected all of their
nursing home patients for medical review. For        hospices that had 36 or more patients
living in nursing homes, we selected 35 patients     at random. This selection process
resulted in the identification of 262 patients for   medical review.

We sent a second letter to each hospice requesting the complete medical record for
each of their patients in our final sample of 262 patients. We also sent letters to the
nursing homes where these sampled patients resided requesting the nursing home’s
complete medical record for each of their patients. We also requested and received in
most cases copies of contracts between hospices and nursing homes, invoices and
receipts for care and supplies provided to our sampled patients.

For the hospices’s medical records, we had a 100 percent response rate. Our response
rate from the nursing homes was 79 percent. We submitted 208 complete medical
records (both nursing home and hospice medical records) to our medical review
contractor. After the contractor’s review and additional review of our own, a final
sample of 200 patients was used for most of our analysis.

We used a medical review contractor to examine hospice and nursing home medical
records to determine eligibility. In selecting our medical review contractor, we wanted
to ensure that the contractor used staff familiar with hospice and hospice philosophy.
The first level reviewers were nurses who had previous experience either in hospice or
nursing homes. The second level reviewers were physicians in specialties related to a
patient’s diagnosis and who had referred their own patients for hospice care. The
medical review contractor also examined the frequency, type and nature of services
provided by hospice. We asked the medical review contractor to determine whether
nursing home services to patients changed after election of hospice. In addition, we
asked the contractor to determine if the services provided by hospice staff could have


                                              4
been provided by the nursing home staff.

For all patients that were determined to be ineligible for the hospice benefit, we had a
second medical review conducted by the medical reviewers for Medicare’s Regional
Home Health Intermediary responsible for the hospice servicing the patient.



In addition to obtaining hospice and nursing home records, we spoke in person or by
phone with 20 hospice providers in our sample. We also spoke with 79 nursing home
providers where these sampled patients lived. These discussions examined how the
hospice and nursing home worked together and their perspectives on how hospice
operates within a nursing home environment.

Other

We used a variety of other information in designing and performing the inspection.
We used HCFA’s Online Survey and Certification Reporting System to identify
hospice names, provider numbers, locations and participation dates. In addition, we
used this same source for information on nursing home hospice patient census and
overall nursing home patient census. We used HCFA’s Decision Support Access
Facility (now the Health Care Information System) to obtain individual claims for our
sample of hospice patients and for overall expenditures on hospice by provider. We
also obtained State Medicaid reimbursement information for sampled patients
identified as Medicaid entitled.

All data reported is at the 95 percent confidence level. (See Appendix B for
confidence intervals on our estimates.)   Most data presented in the report are based
on the results of a weighted sample, although non-weighted data are reported. When
non-weighted data are used, we will identify the data as such.

This inspection was conducted in accordance with Quality Standards for Inspections as
developed by the President’s Council on Integrity and Efficiency.




                                           5

                                       FINDINGS


Lower frequencyof services,the overlapof servicesand the questionableenrollment
in hospice by nursinghome patientssuggestthat currentpaymentlevels for hospice
care in nursinghomes may be excessive.

Lowerjkquency of services

The National     Hospice    Organization’s     Hospice     Services   Guidelines     and Definitions
state:

        The same level, intensity and mix of hospice services should be provided to
        residents of a facility (i.e., nursing home, hospice residence, group home) as
        are provided to other hospice patients living in their homes.

Our sampled nursing home hospice patients were seen less frequently than NHO’s 

guidelines suggest. Nursing home hospice patients were seen by a hospice nurse 1.5 

times a week and by a hospice aide 1.3 times per week. Compared to hospice 

patients living at home, nursing home hospice patients received 44 percent fewer nurse 

visits and 48 percent fewer aide visits. (See Table 2) Despite providing fewer services 

to nursing home patients, hospices are being paid at the same level they receive for 

patients living at home. 




  Average number af visits per week per hospice specialty

    Service       NH0 Staffing       Nursing Home         Home         Percent
                  Ratios’            Patients2            Patients3    IXfferencc4
  : Nurse         2.0                1.5                  2-7          -44%

  : Aide          1.5                1.3                  2.5          -48%

    Social
  : Watker        .8                 .42                  .53          +Zl%

  : Spiritual/
    Pastoral      ,4                 .28                  .16           75%

   1 - Derived’from NH0 staffing ratios, (Example - average WeIoad per nurse is 10,patients;a~erage 

  nuritber bf visits per week per nurse for all patients is 20 +20 visits/l0 patients = 2 visits, per week 

  .@r patient) 

  2 +Based on medical review of nursing home hospice patients 

  3 -.OIG national sample of hospice patients 

  a’-’Percent difference between Column 3 and 4 



TABLE 2



                                                     6

During our review period nearly all of our sampled patients were seen at least once by 

a hospice nurse. In the rare instances where a patient was not seen by a hospice 

nurse it was due to the patient dying before a nurse could see the patient. For the 

other disciplines, the number of patients who were seen at least once drops. For 

example, 38 percent of nursing home hospice patients were not seen by an aide during 

our review period. Only half of the nursing home hospice patients were seen by a 

spiritual/pastoral counselor and 67 percent were seen by a social worker. One 

potential reason for fewer visits by hospice staff could be that the nursing home was 

already providing many of the services offered by these disciplines. 


In addition to providing services to patients, hospices also provide services to the 

patient’s families. We did not extensively review or analyze the services provided to 

our sampled patient’s families. Our reviewers did however document the encounters 

with the family members. Less than 25 percent of our sampled patient’s families were 

telephoned or seen by hospice staff in December 1995. Most of the family contact 

that did occur was done by hospice nurses or social workers. We do not have 

comparable figures for patient’s living at home. 


Nursing homes administrators that we contacted are beginning to realize that patients 

in their facilities may not be getting the services hospices said they would provide. 

Hospices promise additional support for nursing home staff, post death bereavement, 

family support and pain management. Ten out of 79 nursing homes we contacted 

claimed that, in all too many cases, hospices are not providing these services to 

nursing home patients. 


Overlapof services

Three out of four nursing home hospice patients received only basic nursing and aide
visits. Many of these services were provided by nursing home staff as part of room
and board when hospice staff were not present. The remaining one in four patients
had symptoms that required additional care beyond basic nursing and aide visits.
While these additional treatments were provided by hospice staff, the nature of the
services provided, like nursing and aide visits, were often clearly within the
professional skills possessed by nursing home staff. Because the overall responsibility
for a patient’s care transfers to the hospice, the hospice was responsible for the
additional medical interventions provided to those patients who needed more than
routine nursing and aide care.

In many cases, the nature of services provided by hospice staff, while appropriate and
efficacious appeared to differ little from services a nursing home would have provided
if the patient was not enrolled in hospice. The following examples can be used to
illustrate this point.

       A female, age 92, was being treated by the nursing home for bed sores
       using a special mattress. The hospice decided after seeing no change in
       the patient’s condition to try a different mattress to resolve the problem.


                                            7
      A female, age 79, was admitted to hospice to treat the patient’s pain.
      Despite the hospice’s efforts to control her pain the patient claimed no
      relief. The hospice arranged for a nero/psychological evaluation which
      indicated that the patient used her condition to manipulate the nursing
      home and hospice staff. The hospice established a plan of care which
      gave the patient the appearance that she was receiving more drugs to
      control her pain.

      A male, age 81, was examined and found to have a growth in the spleen.
      The hospice made a decision to treat the growth and the pain associated
      with the growth through radiation therapy.

It is difficult to say whether nursing homes would have ultimately made the same
decisions that the hospice did in providing additional services to these patients. In
most cases, the nursing home would have taken some action to address patient care
needs. Standards of care for nursing homes require that they develop a plan of care
to address patient bed sores. Consultations and other interdisciplinary interventions
are also not unusual in the prescriptive nursing home environment that requires
nursing home staff to address weight loss and other changes in patient medical status
in the plan of care.

Clearly, some of the medical interventions by hospice reflect care options that
embodied the hospice philosophy. Because of current nursing home regulations,
nursing home staff would find it difficult to provide some of these interventions. Some
interventions, such as more one on one contact, could be accomplished with additional
funding for such staff in nursing homes. Other solutions would require changes in
nursing home laws, regulations and policies. Today, nursing homes must address any
decline in a patients condition with a plan of care to address the cause. It would be
difficult for nursing homes to dismiss the physical deterioration of a patient as normal
disease progression. Nursing homes must respond with a plan to stop or reverse the
deterioration which often involves hydration, tube feedings, hospitalizations and other
interventions that the hospice would not by law be required to undertake.

Questionable enrollments

Based on two different sets of medical reviews, we project that 16 percent of hospice
patients living in nursing homes did not qualify for Medicare’s hospice benefit at the
time of their enrollment. In some cases, the records showed that patients did have a
terminal condition but were stable with little sign of deterioration or decline. Our
medical reviewers noted that while the hospice benefit may eventually have been
appropriate, at the time of election, patients were stable and the election of hospice
was premature.

The questionable enrollment of patients in hospice care seems focused on those
patients already living in a nursing home before their hospice election. Additional
analysis revealed that only 4 percent of the hospice admissions, where the patient


                                            8
                                           Table 1
entered the nursing home after the
hospice election, were questionable. In                     R&den= of ‘Patient
contrast, our reviewers questioned 21
percent of the hospice admissions,
                                                                                Ineligible
where the patient lived in a nursing
home before their hospice election.              Nursinghome patient before
Many of these patients were entitled to          hospice election               21%
both Medicare and Medicaid.                      Nursing home admission after
                                                 hospice election               4%
As a result of patients being ineligible
for the hospice benefit at the time of          Source: .OIG
their election, the average length-of-
stay for these patients is significantly
longer than patients found eligible for
hospice care. On average, ineligible
patients received 369 days of hospice
                                         1latients. Ineligible patients spent, on average,
care compared to 145 days for eligible patients.
224 more days in hospice care than did eligible patients. The average hospice cost for
the ineligible patients was $37,485 per patient.
                                         Ijatient.

Continuedgrowthin Medicare hospice expendituresfor nursinghome patientsis
expected.

Current Situation

We estimate that in 1995, 17 percent of Medicare hospice patients lived in a nursing
home while receiving hospice services. We estimate that in that same year Medicare
spent $215 million on hospice care for nursing home patients. We believe this
estimate is conservative because we dropped 12 very large hospices from our sampling
universe. These 12 hospices recently underwent separate OIG reviews.

We found that the average nursing home hospice patient in our sample spent 181 days
in hospice care. This estimate is higher than data recently released by the National
Hospice Organization but nearly the same as data released by the Center for Disease
Control and Prevention (CDC). The NH0 data shows that the average length-of-stay
for nursing home patients in hospice was 56.3 days in 1995. A 1992 publication by
CDC estimates the average length-of-stay for hospice patients living in nursing homes
to be 166 days.

Our data indicates that 45 percent of hospice patients living in nursing homes are
entitled to both Medicare and Medicaid. Based on our sampled data, the cost for
patients entitled to both Medicare and Medicaid was, on average, $168.83 per patient
per day. This cost includes an average Medicare payment for routine hospice care of
$96.30 per patient per day and an average room and board payment by State
Medicaid agencies of $72.53 per patient per day.



                                            9

Nursing home mar&

Potential growth in the number of hospice patients living in nursing homes is
significant. Since 1986 when nursing home patients were allowed to elect Medicare’s
hospice benefit, the number of patients on hospice and living in nursing homes has
steadily increased.

A report examining the effects of the Medicare Catastrophic Coverage Act of 1988
estimated that 7.7 percent of hospice patients were living in a nursing home. Three
years later the number of nursing home hospice patients increased to 9.9 percent.
Moreover, a 1992 study by the National Centers for Health Care Statistics estimated
that 13 percent of Medicare hospice patients lived in places other than a private or
semi-private residence. As noted previously, we estimate that in 1995, 17 percent of
Medicare hospice patients were living in nursing homes. Other researchers in this
area believe the percentage of hospice patients living in nursing homes is even higher
than our estimates.

The potential patient volume makes nursing homes ideal candidates for hospice
marketing efforts. In 1995, roughly 1 percent of nursing home residents were receiving
hospice care. A 1996 NH0 survey revealed that 96 percent of hospices surveyed are
planning to begin or increase the number of nursing home patients served. Based on
current information, we expect the number of nursing home hospice patients to grow
significantly.

According to a presentation by a hospice, “nursing home patients may be the key to
cost effective expansion.” This sentiment was also cited by hospices, in an NH0
survey on nursing home issues, as one of the advantages in increasing the number of
nursing home patients served. Nursing home patients allow a hospice to increase their
patient census and increase the average length of stay thereby increasing hospice
revenue.

Not surprisingly, hospices are informing nursing homes of the benefits the hospice can
provide to nursing home patients and nursing homes themselves. Hospices have
offered nursing homes the following:

  0   paying daily rates that are the same or more than the nursing home would have
      received from the State Medicaid agency for dually entitled Medicare and
      Medicaid patients,
  0   allowing the nursing home to reduce staff time for hospice patients, or
  0   increasing the nursing home patient census by promising to use the nursing
      home as the hospice’s respite unit or admit patients to the nursing home whose
      primary care giver can no longer provide the care at home.

In addition, hospice pays for durable medical equipment, prescriptions and medical
supplies related to the patient’s terminal illness. In some cases, the nursing home



                                          10 

would have provided these items had the patient not elected hospice.      This can
potentially improve the financial condition of the nursing home.

Unlimited Benejit

Under current incentives, hospice directors can be more permissive when making a
decision on whether to admit a patient under the hospice benefit. The repeal of the
210 day limit shifted the financial risk for patients living longer than 210 days from the
hospice to Medicare. Prior to the repeal, less than 5 percent of hospice patients lived
beyond 210 days. In early 1996, approximately 14 percent of active patients had
length of stays longer than 210 days, a considerable growth from before the repeal of
the limit.

Before the repeal of the 210 day limit for hospice care, hospices would have to
provide uncompensated care for patients who lived beyond 210 days and continued to
require hospice care. The 210 day limit caused hospice directors to adopt a very
conservative, careful screening strategy regarding who to admit under the benefit and
when to admit the patient. Based on a review of congressional testimony prior to the
passage of the Medicare Catastrophic Coverage Act of 1988 and again prior to the
removal of the 210 day limit, many believed that only a small number of patients
would need the additional benefit period.

Number of providers

The incentives in the nursing home market along with the repeal of 210 day limit may
also have contributed to an increase in the number of hospice providers. In particular
there has been a substantial increase in the number of for profit providers entering
the market. Before 1991, the vast majority of hospice providers were non-profit (See
Chart 2). In 1995, while the majority of Medicare certified hospices continue to be
non-profit, the percentage of for-profit hospice providers has risen to almost 21
percent from 7 percent.




                                            11 

             Providers
                 For-Profit Hospice Providers
                                Medicare Certified (1983-l 995)
                                                                                 /


                2!50-


                200-


                150-


                ioo-




                       1983198419851988   1987 1988 1989 1990 1991 19921993   19941995
             Years


chart2


The Balanced Budget Act of 1997, enacted after we issued our draft report, begins to
address some of the concerns about potential abuses in the fourth benefit period. The
new legislation requires that a hospice medical director recertify a patient’s eligibility
every 60 days once a patient has been in hospice care for more than 180 days.




                                                  12 

                   RECOMMENDATIONS

Medicare’s hospice benefit was intended to allow patients a choice in determining the
intensity of medical care in their last 6 months of life. Since 1986, hospice patients
could receive hospice care either in their home or a medical facility, including nursing
homes. This inspection revealed problems and raised potential questions about
hospice care provided to nursing home patients. Hospices receive the same daily
reimbursement from Medicare for nursing home patients as they would receive for
patients living at home, even though hospices provide fewer services in the nursing
home setting.

The inspection also raised questions about the potential for growth in Medicare
expenditures for nursing home patients. It also identified incentives which may
financially reward hospices for premature elections by patients of the hospice benefit.
The Balanced Budget Act of 1997, enacted after publication of our draft report,
begins to address some of these problems by requiring periodic recertification of
eligibility.

To address our findings, we recommend     that the Health Care Financing
Administration seek legislation to:

  a 	   Modify Medicare or Medicaid payments for hospice patients living in nursing
        homes.

These modifications can include but are not limited to lowering hospice payments for
patients who reside in nursing homes or revising requirements for services provided by
nursing homes for terminal patients.

We suggest that representatives from the nursing home and hospice industry along
with HCFA work in a collaborative manner to develop additional options to preserve
and enhance hospice care for those who need it when living in a nursing home.

AGENCY COMMENTS

We received comments from the Health Care Financing Administration, the Assistant
Secretary for Planning and Evaluation and the Assistant Secretary for Management
and Budget. We also solicited and received comments on the draft report from the
National Hospice Organization and the Hospice Association of America. We have
made changes based on these comments and have consolidated our first three draft
findings into one.

An underlying theme to the comments was a belief that it was inappropriate to
recommend eliminating Medicare’s hospice benefit for patients living in nursing
homes. However, there was general agreement on the need to examine Medicare and
Medicaid payment for hospice patients living in nursing homes and to clarify the


                                           13
future role of nursing home staff in providing palliative care for patients with terminal
diagnoses.

We have changed our first recommendation to remove the suggestion of eliminating
entirely Medicare or Medicaid funding but to reflect that some modification of the
hospice benefit for patients living in nursing homes is necessary. In addition, as noted
earlier, legislation was enacted to address a second recommendation which we had
included in our draft report on modifying the current benefit structure in the fourth
benefit period. Because of this, we have dropped this recommendation from the final
report.

The full text of the comments received on this report are included in Appendix C.
While they sometimes take issue with our own analysis, we believe they provide
valuable insights on the hospice program and nursing home care. We regard them as
an integral part of the report and recommend them to the attention of the reader.




                                            14 

APPENDIX          A





  METHODOLOGY 





       A-l
                                     Methodology

Table 1 describes the total number of hospices in our universe by the strata. The
table provides information about number of hospices sampled, number of hospices
responding and number of hospices with nursing home patients.


                       Table 1 Number of Hospice per Stratum

 Stratum               Total          Total number     Total          Number of
                       Number of      of Sampled       number of      Hospices with
                       Hospices       Hospices         responding     Nursing Home
                                                       hospices       Patients
 California (CA)       140            6                5              3
 Florida (FL)          36             6                4              3
 Illinois (IL)         74             6                6              6
 New York (NY)         53             6                6              4
 Texas (TX)            104            6                5              3
 Rest of the United
 States (RU)           1,394          6                5              3


Table 2, on the next page, identifies by hospice the total number of hospice patients,
number of nursing home patients if any and the number of complete medical records.
A medical record was considered to be complete if information was received from
both the hospice and nursing home. This number represents what was sent to our
medical records contractor and after our own additional review.




                                          A-2 

rable 2   Hos kc/Nursing Home Hospice patientsby Hospice
                       December 1995 Census

Hospice        Number of      Number of       Number of    Complete
               Hospice        Nursing Home    Sampled      Medical
               Patients       Patients        Patients     Records
 CA-1          35             7               7            7
 CA-2          31             7               7            4
 CA-3          38             32              32           23
 CA-4          32             0               0            NA
 CA-5                                         0            NA
FL- 1
FL-2
 FL-3
              :‘i                             0
                                              35
                                              6
                                                           NA
                                                           11
                                                           4
 FL-4          48             6               6            4
 IL - 1        92              15             15           12
 IL - 2        31             4               4            2
 IL - 3        57             2               2            2
 IL - 4        28              10             10           9
 IL - 5        29             7               7            6
 IL - 6        11             3               3            1
 NY-l          229            58              35           35
 NY-2          105            2               2            2
 NY-3                                         4            4
 NY-4                                         14           13
 NY-5                                         0            NA
 NY-6                                         0            NA
 TX-l                                         8            5
 TX-2                                         0            NA
 TX-3                                         22           21
 TX-4                                         35           29
 TX-5                                         0            NA
 RU-1                                         0            NA
 RU-2          22            14               4            3
 RU-3          3              0               0            NA
 RU-4          5              2               2            2
                                              2            1




                              A-3 

APPENDIX            B





  ConfidenceIntervals




        B-l
                       Variance and Estimated          Confidence     Inten&



                                  Estimate 	           Standard
                                                       Error

Ineligible patien .s              16.08%               4.31%          I 7.63%           I 24.53%
Nursing home
admission
before hospice
election           Ineligible     20.78%               4.89%              11.20%         30.36%
Nursing home
admission after
hospice
admission          Ineligible     3.62%                2.85%              0%             9.21%
Patients duallv entitled          44.93%               4.93%          I 35.27%          I 54.59%
Average length of stay for        144.50               22.99              99.44           189.56
eligible patients                                                     I
Average length of stay for
ineligible patients               368.70               59.61          I 251.86           485.54
Average reimbursement      for
total hospice stay for
ineligible patients               $37,485.10           $2903.41           $3 1,794.42    $43,175.78
Average length of stay for
nursing home patient             ~ 180.55              33.00              114.55         246.55 

Percent Medicare Patients 

living in a nursing home          17.17%               5.15%              7.08%          27.26% 


Medicare daily rate               $96.30               $1.58      7       $93.20
                                                                            ~      ~    I- $99.40
Medicaid Nursing Home 

Rate                              $72.53               $3.72          I $65.24           $79.82 





                                               B-2 

APPENDIX       C





 AGENCY CO-

        DEPARTMENT   OF HEALTH    & HUMAN   SERVICES                      Health Care Financing AdmInistratIon



                                                                          The Acbministrator
                                                                          Washington, D.C.     20201




DATE:        JUL 29 1997

TO: 	         June Gibbs Brown
              Inspector General

FROM: 	       Bruce C. Vladeck
              Administrator

SUBJECT: 	 Office of Inspector Gem-al (OIG) Dra& Report: “Hospice Patients in
           Nursing Homes: Eligibility, Services and Growth,” (OEI-05-95-00250)


We reviewed the above-referenced report that examines eligibility, services, and   growth
in the number of hospice patients living in nursing homes.

Our detailed comments are attached for your consideration. Thank you for the
opportunity to review and comment on this report.

Attachment
            Comments of the Health Care Financing Administration (HCFA) on
                     Office of Inspector General (OIG) Draft Report:
          “Hospice Patients in Nursing Homes: Eligibilitv, Services. and Growth”
                                    fOEI-05-95-00250)


 OIG Recommendation 1

Eliminate or reduce Medicare or Medicaid payments for hospice patients living in nursing
homes.

HCFA Response

 We concur. For reasons discussed in the next paragraph, we suggest you add the
 following to the reconuner dation: “and require nursing homes to provide end-of-life care
 as may be needed.” Your report makes a good case for reform of the hospice benefit
when it is provided to beneficiaries who reside in nursing homes. In particular, the higher
lengths of stay (LOS) by individuals who were residents of the nursing home at the time
of hospice election, and the even higher LOS for individuals who were eligible for both
Medicare and Medicaid, contrasted with the significantly fewer services received by
hospice patients residing in nursing homes compared to hospice patients in their own
homes, lend strong support to reform for the benefit. Further support for change is
evident in your finding that approximately 75 percent of the additional services provided
by hospices to its nursing home patients were ones that differed little from services a
nursing home would ordinarily provide to its residents. The projected growth of hospice
programs providing services in nursing homes needs to be addressed, and your
recommendation will help at a time when Congress is seeking ways to reduce
unnecessary Medicare expenditures.

We suggest amending this recommendation to require nursing homes to provide needed
end-of-life care; an important safeguard for beneficiaries who actually may need hospice
care in a nursing home should the benefit undergo the proposed change. Currently, the
law does not explicitly describe this service as a requirementfor nursing homes under
Medicare or Medicaid, and palliative care would be an appropriatesetice to offer. Your
report correctly recommends the reduction or ehmination of the hospice benefit in
nursing homes, but without requiringnursing homes to provide end-of-life care we would
be doing a disservice to our beneficiaries.

Earlier this year, HCFA prepareda legislative proposal that would have ended payment
for hospice for beneficiaries residing in nursing homes, and would require nursing homes
under Medicare and Medicaid to provide all necessary end-of-life care to its residents.
Subsequent discussions of this proposal with representatives of the hospice industry and
                                                                                       2


 the Administration indicate it is unlikely the proposal will be considered during this
 session of Congress. However, the discussions found the industry recognizing and
 agreeing with HCFA that reform of the hospice benefit when provided to nursing home
 residents is needed. HCFA will use the OIG recommendation as an additional impetus
 for the changes that need to be made, including the possibility of lower hospice payments
for patients who reside in nursing homes, revising the requirements for services provided
by nursing homes, or some other option to preserve this type of care for those who need it
when living in a nursing home. HCFA anticipates it will be working with representatives
of the hospice industry in the development of needed legislative reforms for this part of
the hospice program.

Another factor to consider is while many hospice services may be capable of being
provided by nursing home se        many other hospice services (family counseling,
bereavement counseling, etc.) probably are not. Nursing home stafYmay lack the
professional skill and training necessary to deliver the full range of hospice services to
individuals electing this type of care.

OIG Recommendation 2

Modify the benefit period structure to prevent abuses in the fourth benefit period.

HCFA Response

We concur. We have had a long-standing legislative proposal to address the problem of
the fourth unlimited benefit period. Our preference had once been to impose a limit
(360 days) on the number of hospice days available to any beneficia@ in his or her
lifetime. It would have returnedthe hospice admission process to its earlier conservative
requirement, whereby a hospice would caremy consider an admission since the ticial
risk was on the provider if the beneficiary lived beyond the original number of
210 covered days. Presently, we have a legislative proposal we believe has a reasonable
chance   to be considered by Congress that will repeal the third 30day period and fourth
unlimited period, and replace them with an unlimited number of 30day periods. There is
a bill before Congress similar to our legislative proposal, except it provides for an
unlimited number of 60day periods.

We plan to support whichever proposal Congress accepts, and to implement it as quickly
as the law permits.
 Other comments:

 0	    Page 1, Background section, last sentence, should be revised to read:
       “Congress repealed the hospice benefit’s 210&y limit, effective for services
       furnished on or after January 1, 1990.” The Omnibus Budget Reconciliation &ct
       of 1990 made this change.

 0     Page 1,5th paragraph, line 4: Change “looses their” to “loses his or her.”

0	    Page 1, last paragraph: You should specify that Medicare patients enrolled in the
      hospice program waive coverage of all curative medical services related to the
      treatment of the terminal illness. The way it is currently written, the hospice
      patient receives no care at all for a terminal condition.

0	    Page 2, first paragraph: It should be specified that the hospice assumes the
      professional management of the patient’s medical care for the terminal condition.
      Management of a patient’s other conditions, unrelated to the terminal condition, is
      not the responsibility of the hospice, but of the nursing home. The only exception
      to this is if the patient’s attending physician is unwilling or unable to prescribe
      care for the unrelated condition, at which point the hospice would be responsible
      for that care as well

0	    Page 2, 1st paragraph,line 5: Insert “personal care services,” following the word
      “includes.” This is an important room and board service that we want clearly
      presented as a nursing home responsibility.

0	    Page 3;Scope section: You limited your inspection to services provided to
      patients in the nursing home, but not to the patients’ families. It would help
      your presentation if you could provide a rationale for that decision, since
      bereavement counseling is a mandatory hospice benefit and a volunteer,
      counselor, or a hospice social worker could presumably be providing such
      services to the patient’s family at their home. We doubt the volume of such
      services would alter your findings, but you may wish to remove this as a
      potential issue with a brief explanation for your decision. Since your
      reviewers examined the hospice records, if significant services had been
      provided to the families, presumably your reviewers would have noted it.

0	    Page 4: We suggest you offer some information about the qualifiOati0ns, trainin&
      or preparationyour medical review contractors had before beginning their
      examination of patient records. Eligibility for the hospice benefit (physician
                                                                                    -
                                                                                     4

     certification that the beneficiary has a terminal illness with a life
     expectancy of 6 months or less if the illness runs its normal course) is one
     of the most controversial aspects of the program at this time. With the
     higher numbers of ineligible patients identified in the report, greater
     credence will be given if the reviewers’ credentials are bolstered by some
     reference to their competence to perform the reviews.

0	   Page 6,2nd paragraph, Eligibility Rate: You state 73 out of 200 sampled
     patients had 1 of the 4 diseases covered by the National Hospice
     Organization (NHO) guidelines, and under these guidelines, 27 percent
     were determined to be ineligible for the benefit at the time of election. We
     suggest you provide information about the other 127 patients whose
     diseases were not described in the NH0 guidelines. This would give us a
     more complete picture of the population studied, as well as make the study
     more defensible.

0	   Page 6: The footnote at the bottom of the page states “1994” as the
     publication date for the NH0 guidelines. The correct year is “1995.”

0	   Page 7, second paragraph: The $168.83 figure for the combined cost to both
     Medicare and Medicaid for providing hospice care to dual-eligibles should
     be further specified as a per patient per day figure.

0	   Page 8, last paragraph The word “were” in the second line should be
     replaced with “where.”

0	   Page 8:-Thedifferential level of services discussed on this page is one of the most
     importantfindings about hospice patients who reside in nursing homes. Why are
     there so many fewer tic-es for a patient who resides in a nursing home
     compared to a patient who resides in what is considered a regular home? Why is
     Medicare paying so much more for so much less? One reason may be the
     purchase of non-core services by the hospice from the nursing home (see 42 CFR
     418.56). This is acceptable and the hospice should be able to document its
     purchase in the papers completed to meet the cited requirement. The report should
     deal with these issues to ensure its findings are solid.

0	   Page 9, first sentence ending at top of page: It should be specified that one
     reason for fewer visits by hospice staff could be that nursing home staff was
     already providing many of the hospice’s services.
                                                                                       5


 0      Page 9: Tied to the comment made above regarding intensity of services,
        the finding that approximately 75 percent of the hospice patients in a
       nursing home were receiving services that were “clearly within the
       professional skills possessed by the nursing home staff,” presents, if true,
       another strong indication that this area of the program is in need of change.
       Accordingly, you may wish to strengthen the explanation as to why this is
       true.

0      Page 12, final paragraph: You report that in early 1996 about 14 percent of active
       patients had lengths of stay exceeding 210 days. Please cite your source, as it is
       an important figure that indicates the growth of a program that needs to be
       controlled.

0      Page B-2, second and third boxes from the bottom: The language should be
       changed to “Average length of stay for nursing home hospice patients” and
       “Percent Medicare Hospice Patients living in a nursing home,” respectively.

We also would add one final caution. HCFA does not have comparable bases for some of
the data and cost estimates presented in your report. While we do not suggest that any of
them are inaccurate, we do urge OIG to make certain that it can substantiate them.
                                Ju.221997


TO:         JlJn8 Gibbs Ehwn
             Inspedor Gcneml

FROM:       DavidF. Garrison
            Primlpal De~utybksktantS8uery
            For Planning�d Evaluation

sU6JECT 	   010 ropwtentitled,‘HoapioaPatknts h Nunlnp Homes:EUglb#&y,
            senibg, and Growth’- Condttiod Concurtonce
    Page 2 - .lune Gibbs Brown



Priorto eliminatingtha hospicebenefitin nursinghomes,we believe the roles and
nspondbilities of hospiceaand nuning homescaringfor bene6ciarieselecting hospice
and rwidhg in nursinghomesshouMbe more cumploWyunderstood. Implicitin a
recommendationto “eliminate8the Mediire hosplcebe&t for nursinghome
residents,is an assumptionthat nuning homesare (or shouldbe) able to provide
hospiceeeniccs. However. beforesuch a recommendationis advanced, we believe
additionalinformationis needed regardingthe:

.       ‘hoepica philosophy’;
.	      ~ioar9     rSql&l?nMh    for providinghospicebenefits in nokinstttutionaland
        instltuWml setUng8and how, If at alf, the tmpkmentMlonof these requirements
        vrfbe wow aettlngu
�       8ewic6 oquirements of hospicepatientsand how these are the same or
        difhmnt fromtypIcalnumingfacilitym&dents;
.       additIonalvalue, if any, of havtnga hospka (rather than a nursinghome) provide
        end of Ii16care to the terminallyiH;
.	      additionalco&s that wouldbe incurrodby nursinghomes (and consequentlythe
        Medbn and Medladd progmms,and prhratepay patients)if they uww to
        become mspomtbb fvr providing hospice cam; and
.	      bwrbn nursinghomeswouldencwnter in providingend of life care to those
        withterminalillnc6688.

ASPE is �xpkring the fbasibilityof studyingthe Medicare hospicebenefit using
MedIcam claimsand other data, and interviewsof hospiceend nuning home providers.
The goal of suoh a 8tudyis to produceinformationon:
 Page   3   - June Gibbs Brown

 Further,we ara ooncamedthat without more completeinformationaboutthe hospice
 boneltt,how it b used. and paidfor, recommendationsto dlminate or reduce the
 banefitwill ba parwivad as too draconian. We wouldlike to have an opportunityto
 discussthen concernswithyou and how our studycouldbe used to Infarmthe currenl
 discussionon hospiceissuae.



 The rsp0~ findsthat hospfcefwtientsIn nursing homes rruive half the nursingand
 aide ~enrkz~ mti         to horrpicepMidnk livingat home, Thir findingir;based on a
 reviGwof hospiot nMical recordscomparedwiththe numberof nursingand aMe visits
 m              by tha NationalHospicsOrganization. While the OIG raviewadthe
medical record8of nun(ng homer and ccWra& bafwwn nursinghomes and hosp&.s,
themsdtsoftrll%erwiewa wafa not pwentad in the report. Absent a discussionof
the 8wfces proMdadby nuning homes,the reader Is M with the Impressionthat the
quantityand possiblyquaMyuf hospioacara providedto numinghome patientsis less
than that providedto other hospim patients. VM understandthat the OIG was r**
intendingto commenton the quaMyof care reoaiwd by nursinghome hospicepatients.
Instead,we beti     the OIG was attemptingto ruggest (in part) that Medicare is
overpaying because tha kwel of effortby hospice staff is less for nursinghome patients
than fw other lwspb pWcn@ despiterecWlng the same Medicare hospicepayment
amount(plusa Mcdii        add-cmfor dually4gibk parsons), We rau)mmefld the
mportba modifiedtK,pfovldaJnformatkmabout the contra& between hoclpiceaand
nursinghomea, nursing and aide sonices providedby nuning homesto horpica
patiants,and w      thaI variationsin setvica deliveryas rsportedin medical rec~rvls for
hospioepatian& in nursinghomescompand withhospicepatientsnot in nursing
homer doas not necessarltyrafbct on the qualityor level of cam received by these
patients.

The reportdiisw6   howcurrentnuning home nrles wouidhave to be changed and
nwrkrg home paymantsincreasedto providehospiceswvk@a(p.10). We do not
baUev0that It ia v     to atatethat nursinghomas“mustrespondwitha plan to stop
or mvuw tha da#emfaWn” by provldingacthrelnterventionr. Wa b&i   that cur?ant
nurainghomefuk8pennitpatkmtstorafusetr&nMts.       wetacommandthatth@
+     fjw&bfj CucfcMfnursinghame requkenrentt of methg each paMaM naeds
andtheltghtto~aawIcw.
 Page 4 - Juno Gibbs Brown

The repott reoofnmendsthat the hospicebeneilt be modifiedto prevent “abuses in the
fourthberAt period.’ However,the reportdoes not prwide informationabout ‘abuses
in the burtll benent paf&Kl.’ Instead,the 016 foundthat between (opproxhnatoly)11
percentand 27 pwEbntof nuning home hospicepatientswem ldlgible ‘at the time of
[their]electIon’ of the hospicebenefit. OIG stafk reportthat many of these initially
ineliiible personsbecome eligibleever time. Thus, it wouldappear the problemis not”
with the fourth benefit period but in8tead with initial &ligibiMy determinatians.
       DEPARTMENT         OF HEALTH   & HUMAN      SERVICES                   Office of the Secretary



                                                                              Washington, D.C. 20201
                                              MAY 2 2 1997

 MEMORANDUM         TO:         Office of the Inspector General
                                 Attention: George Grob 


 FROM: 	                        John J. Callahan
                                Assistant Secretary for Management    and Budget

 SUBJECT: 	                     Concur with Comment: Draft OIG Report -- “Hospice
                                Patients in Nursing Homes: Eligibility, Services, and Growth”

ASMB has the following comments with regard to this report:

1. 	   OIG’s first recommendation -- “to reduce or eliminate Medicare or Medicaid
       payments for hospice patients living in nursing homes” -- implies that HCFA
       should discourage covering hospice services in the nursing home setting. This
       is clearly not a policy the Department should advocate.      For many hospice
       patients, there’s no alternative but to receive this care in a nursing facility.

       We believe that OIG’s intent in offering this recommendation was to address
       abusive payment practices. For instance, in many cases, nursing facilities
       receive duplicative Medicare and Medicaid payments for hospice services they
       provide to dually eligible beneficiaries. In addition, the OIG described situations
       in which a nursing home was paid for hospice services it did not provide.

       ASMB suggests that OIG revise this first recommendation to address fraudulent
       and/or abusive payment practices for hospice services provided in nursing
       homes.

2. 	   OIG’s second recommendation - “to modify the current benefit period structure
       to prevent abuses in the fourth benefit period” - does not reflect recent fraud
       and abuse legislation HCFA sent to the Congress to address this problem.

       ASMB recommends that OIG revise the language of this report to recognize
       recent legislation offered by HCFA to address problems with the fourth benefit
       period. This legislation would replace the third and fourth hospice benefit
       periods with an unlimited number of thirty-day periods, each of which would
       require recertification of a patient’s terminal diagnosis.

3. 	   OIG’s report emphasizes problems with the hospice eligibility process, but only
       offers recommendations  dealing with the back-end of the hospice benefit.

       ASMB would ask the OIG to consider including recommendations to improve
       hospice eligibility   determinations    on the front end.                         -.
                                   NATIONAL HOSPICE 

                                    ORGANIZATION 



                                        August 8, 1997


The Honorable June Gibbs Brown 

Inspector General 

Department of Health and Human Services 

330 Independence Ave., S.W. 

Room 5246 

Washington, DC 2020 l-000 1 


Attention: 	   George F. Grob
               Deputy Inspector General
               Office of Evaluation and Inspections

Dear Inspector General Brown:

Thank you for the opportunity to review and respond to a draft of the Office of the Inspector
General report, Hospice Patients in Nursing Homes: Eligibility,Services and Growth as
developed by the Office of Evaluation and Inspections (OEI). I would also like to express
NHO’s appreciation for the cooperative efforts of OEI staff provided our office during the
development of this report.

We believe the report serves as a warning that the Medicare Hospice Benefit is more
vulnerable to waste and abuse when provided to Medicare/Medicaid-eligible residents of
nursing homes. It should be noted, however, that the report suggests only the potential for
such behavior.

The report is most useful in underscoring the need to collect additional information regarding
the nature and cost of hospice care provided in the nursing home. The development of such
tiormation has been a long-standing interest of the National Hospice Organization (NHO).
As you may know, in January 1993, at NHO’s urging, the Chairmen of the House Ways and
Means and Senate Finance Committees asked the Office of Technology Assessment to study
hospice care in the nursing home. Unfortunately, the request was ignored. If the request had
been honored we might have the information today to evaluate the payment levels.

Additionally, over NHO’s strong objection, HCFA elimmated cost reports for hospice
programs years ago, even after NHO, at its own expense, designed proposed new cost reports
that were more accurate and easier to use. We were pleased to see that legislation reinstating
cost reports for hospices has recently been signed into law.

                                      1901 N. Moore Street

                                              Suite 901

                                       Arlington,   VA 22209
                                           7031243-5900

                                         7031525-5762        fax
                                        http:llwmv.nho.org
We clearly agree with the recommendation to modify the current benefit period structure of
the Medicare Hospice Benefit. NH0 has strongly supported restructuring the unlimited fourth
benefit period by having two periods of 90 days and then an unlimited number of 60 day
periods. Such a structure would protect the beneficiary’s access to the hospice benefit while
also protecting Medicare by requiring more frequent evaluations of the eligibility of the
patient for the hospice benefit. Through NHO’s urging, this legislation has also recently been
signed into law.

As suggested above, we also agree that the payment structure for hospice services delivered in
the nursing home needs to be reviewed to make certain that the payment reflects a fair and
appropriate level of payment for quality-driven hospice care. In discussions with the Health
Care Financing Administration (HCFA) we have pledged the resources and efforts of this
organization to working with HCFA to craft a fair payment system that reinforces the
appropriate incentives.

However, while we find the report to be useful in the manner we have described, we object to
the conclusion that the Medicare Hospice Benefit should not be available to residents of
nursing homes. The recommendation to eliminate the availability of the hospice benefit in the
nursing home appears to be a draconian response to the facts as presented. We are also
distressed by certain content in the draft report we reviewed as noted below.

BACKGROUND

Hospice Cure

� 	   The statement is made that the daily amount paid to the hospice is provided even if no
      services are provided. This statement may be misleading in that this rate also includes
      payments for the every day costs of durable medical equipment, medications, on-call
      availability and the administration of the hospice program, including the significant costs
      of interdisciphnary team coordination of the care plan.

� 	   The statement is made that Medicare expenditures for hospice care have increased
      significantly during the period 1986-1995. While this statement is true, the context is
      missing. The Medicare Hospice Benefit was not made a permanent benefit until 1986,
      and it should not be considered unusual for significant growth to occur in an emerging
      benefit, particularly when the services associated with that benefit are only now becoming
      familiar to the public. Additionally, HCFA’s statistics suggest that the increases in
      Medicare expenditures primarily represent increased numbers of patients served rather
      than increases in per patient costs. Hospice care continues to be the smallest of the
      Medicare benefits representing only a tiny fraction of total Medicare expenditures. Also, a
       1995 Lewin-VHI study suggests that Medicare costs would have been more than a billion
      dollars higher in 1995 without the Medicare Hospice Benefit.




                                                                                            -.


                                                                                                    2

Hospice Care in Nursing Home

� 	   The chart and accompanying text fail to describe accurately the payment flow. As you
      know, hospice care services must be provided strictly by the hospice. It may be
      misleading to suggest that all payments go to the nursing home.

Offze of Inspector General Work

Scope

� 	   The statement is made that the inspection was limited to services provided to the patient
      and the report does not discuss services provided to the patient’s family. One of the basic
      principles of hospice care is that the patient and family unit is the focus of care. One of
      the great misconceptions of death and dying is that of a defined medical event. In hospice
      care we have learned that to care for the physical, spiritual and emotional needs of the
      patient you must also care for the patient’s family, however it might be defined. To
      disregard the family should lit the confidence in the conclwions related to the provision
      of hospice services.

METHODOLOGY

� 	   The study involves disproportional sampling at two stages, requiring a “double weighting”
      procedure to get from sample results to a national estimate and greatly complicating the
      calculation of confidence limits. For example, the report notes that “Most data presented
      in the report are based on the results of a weighted sample.. .” But disproportional
      sampling is used twice: First, in the selection of hospices (i.e. 6 hospices were selected to
      represent all hospices and 60 percent of all hospice patients in 45 states; while 6 hospices
      were selected from each of the 5 other states). Second, when all nursing facility hospice
      patients were selected from those with less than 35 patients, but a random sample of 35
      patients was selected from each of the remainin g hospices. While presenting a significant
      amount of data the report is silent on an important methodological procedure, i.e. how
      were the sample findings weighted to determine the estimate of those who are ineligible?

� 	   The study is also silent on whether all stays reported in the study are actually completed
      stays. For example, at one point the report states that “Thirty-five percent of nursing home
      hospice patients in their fourth benefit period did not qualify for hospice care at the time of
      their hospice election.” This suggests that at least some patients were studied while they
      were still being served, rather than only after service was completed. This is important
      because if some patients were studied while they were still being served the data may not
      be comparable between different groups.

� 	   One of the conclusions drawn by the study is that the number of patients living more than
      2 10 days is dramatically increasing. While the conclusion may or may not be correct it is
      unclear if it is actually supported by the data provided.

�     The study, while noting with some alarm the number of patients living longer than 2 10
      days, is silent on the fact that more than 15 percent of hospice patients are referred to
                                                                                                -.

                                                                                                     3
      hospice care within a week of death (Christakis NA, Escarce JJ. Survival of Medicare
      Patients After Enrollment in Hospice Programs. N Engl J Med 1996; 335: 172-7.).

FINDINGS

EligibiLityRate

� 	   The report notes that 19 percent of hospice patients living in nursing homes did not qualify
      for Medicare’s hospice benefit. This statement regarding eligibility is based on the review
      of medical records to determine if the reviewer agreed with the prognosis and therefore
      eligibility of the patient established by the attending physician and/or the hospice medical
      director. According to the widely reported SUPPORT study, physicians have limited
      ability to predict the impending death of their patients even in the controlled environment
      of the nation’s finest teaching hospitals. This is an area in which reasonable doctors ought
      to be able to differ without penalty to the provider or the patient. However, your
      determination of ineligibility for these patients is based on your medical reviewers’
      judgments that certain patients were not terminally ill with a prognosis of six months or
      less being deemed 100 percent reliable and correct, and the differing opinions of the
      patients’ attending physician and the hospice medical director being deemed 100 percent
      incorrect.

� 	   As noted, the eligibility requirement for the Medicare Hospice Benefit is the certification
      of a terminal prognosis of six months or less, if the disease runs its normal course. A
      patient does not have to show signs of decline at the point of election nor do they have to
      be unstable or on the brink of death to be eligible for the Medicate Hospice Benefit.

� 	   We applaud OEI’s use of IWO’s Medical Guidelinesfor Determining Prognosis in
      Selected Non-Cancer Diseases as an improvement over simply relying on the inconsistent
      skills of its medical reviewers in determining prognosis. Unfortunately, it is unlikely that
      the tool was available to the hospices and attending physicians at the time the patients
      elected the hospice benefit. Indeed, as you know, hospices reviewed in this report until
      mid-1995 were required only to obtain physicians’ certifications to meet regulatory
      requirements.

Impact on Length of Stay

� 	   We question the accuracy of the length of stay conclusions as they are so inconsistent with
      all the known data. In addition to the methodological questions that we have already
      posed, we would question the use and accuracy of 1992 CDC comparison data.

Hospice Services

� 	   We certainly agree that the level and mix of hospice services should be equally available
      regardless of the patient’s residence; however, we are uncertain that your report supports
      the conclusion that they are not.
� 	   In addition to the methodological questions that appear to undermine the comparability of
      the data, we would also restate that disregarding the hospice’s services to the family
      erodes the comparability of the data

� 	   There is absolutely no data provided to support the speculation found on page nine that
      nursing homes were already providing the services offered by the hospice.

� 	   The statement is made that one out of eight nursing homes contacted “claimed that, in all
      too many cases, hospices are not providing these services to nursing home patients.”
      Without knowing who was responding for the nursing home or seeing the interview tool,
      it is impossible to ascribe any validity to this statement. One out of eight nursing homes
      could have thought they were under an OIG investigation, We would also point out that
      “minimal” disruption to the daily routine at the nursing home is not a Medicare covered
      hospice service, and including it on the list biases the response.

� 	   The examples used by the report suggest responsible actions by the hospice. To suggest
      that the nursing home would have responded in a similar manner is again not supported by
      any data. An equally plausible conclusion is that absent the hospice program, the patients
      would not have been cared for in the nursing home at all and would have all been
      transferred to a hospital at significantly higher cost to Medicare.

� 	   NH0 agrees with the report’s conclusion that much of what hospice care provides in the
      nursing home could be done by the nursing home itself if the goals, mission and culture of
      the nursing home were changed; if the nursing home were paid more money, and if the
      laws and regulations that currently inhibit such care by the nursing home were changed.
      We note, however, that changes in the law to require that patients’ rights to refuse
      treatment be honored in the nursing home setting appear not to have had the intended
      consequences.

SUBSTANTIAL         GROWTH EXPECTED



� 	   The report suggests that the inclusion of the hospices that underwent separate OIG reviews
      would alter the estimates. This statement appears inconsistent with statements of data
      reliability made as part of the methodology section.

� 	   The report concludes that “Overall costs for the care of hospice patients residing in
      nursing homes appears to be substantially higher than for other hospice patients.”
      However, no data are presented to support the conclusion. Without information on total
      actual Medicare and Medicaid payments for hospice patients served in the community and
      those served in nursing homes, conclusions regarding relative costs cannot be drawn.

RECOMMENDATIONS

� 	   NH0 agrees that the current benefit period structure should be modified and strongly
      supports the changes now required by law.


                                                                                                   5
� 	   NH0 finds nothing in this report that supports the conclusion that the Medicare or
      Medicaid Hospice Benefits should not be available to nursing home residents.
      Additionally, no actual data is presented to support a specific reduction in payments for
      hospice services provided in nursing homes.

� 	   NH0 reiterates its commitment to working with the Health Care Financing
      Administration to craft a payment mechanism for hospice care in the nursing home that
      addresses concerns related to overpayments. To craft an appropriate response will take
      reliable information and thoughtful analysis, neither of which is currently available to the
      government or the hospice community.

NH0 is concerned that our objections to this study and its recommendation to eliminate the
hospice benefit in the nursing home will be construed as a lack of interest in and support for
continually improving the Medicare and Medicaid hospice benefits and reducing any
‘tulnerabilities.” Neither is the case.

Over the years, NH0 has taken the following actions to improve the delivery of hospice care
in the nursing home:

� 	   In the absence of a government or medical community initiative, NH0 has spent
      significant resources developing guidelines for establishing terminal prognoses to
      encourage the referral of patients to hospice care, but also to provide attending physicians
      and hospice physicians the tools to increase their certainty that only appropriate patients
      are admitted to hospice care.

� 	   NH0 has also spent considerable resources and almost a decade in an effort to improve
      the quality of hospice care provided in the nursing home, and to improve the relationship
      between the hospice and the nursing home while minimErg the potential for abusive
      behavior. These efforts have been made with minimal government assistance to clarify
      the rules governing these relationships.

� 	   NH0 has established a Nursing Home Task Force that continues to identify problems and
      solutions to this complex issue.

-0 	 Despite our differences, NH0 has worked closely with the OIG to identify problems and
     to communicate these issues to hospices.

� 	   NH0 is also working closely with HCFA to develop new Medicare Conditions of
      Participation, including new provisions concerning hospice care provided in the nursing
      home. We have worked with HCFA and the fiscal intermediaries (FI’s) on focused
      medical review, and we are also working with the FI’s Medical Directors to design “Local
      Medicare Review Policies” that will provide FI’s and hospices better guidance in
      admitting appropriate patients.
� 	   We continue to support more ftequent surveys of hospice programs and better surveyor
      training. One of our general concerns about the entire Operation Restore Trust experience
      is the expenditure of extraordinary sums of money to capture a few “bad apple” actors
      when the day-to-day operations of the government’s oversight efforts are left to flounder.
      Increasing the routine surveys of hospice providers beyond the current average of 10
      percent per year by appropriately trained surveyors could substantially eliminate the
      problems that concern us today before they happen.

NH0 thanks you for your consideration of our comments. While we cannot support your
recommendations to limit hospice care in the nursing home, we are confident that the steps we
have aheady taken and the efforts that have been undertaken by various government
authorities will have the desired effect of limiting fraudulent and abusive behavior by hospices
and nursing homes.




President
                          June 26, 1997
228 Seventh Street, SE
      Washington, DC
           20003-4306     Mr. George Grob
        (2021546-4759     Deputy Inspector General for Evaluation and Inspections
    Fax (202X47-9559      Office of the Inspector General
                          330 Independence Avenue, S.W.
  Rosemary J. Hurzeler    Washington, DC 20201
                 Chair

      Diane H. Jones
     Executive Director


                          The Hospice Association of America (HAA) would like to thank you and the Office of
                          the Inspector General (OIG) for this opportunity to comment on the draft report,
                          “Hospice Patients in Nursing Homes: Eligibility, Services, and Growth.” HAA believes
                          that while the report begins to identify some of the problems inherent with the hospice
                          nursing home benefit, including the scope and intensity of services and reimbursement
                          issues, the study is generally misdirected and fails to recognize the distinction between
                          hospice and other health care services.

                          Our comments focus on the stated purpose of the study, which was “to examine
                          eligibility, services, and growth in the number of hospice patients living in nursing
                          homes.” In our assessment: elinibilitv is examined by applying criteria from a source
                          (Medical Guidelines for Determining Prognoses in Selected Non-Cancer Diseases) not
                          available at the time patients being reviewed were enrolled in hospice care; the review
                          of hospice services provided to nursing facility (NF) residents does not reflect an
                          understanding of the difference between hospice care and long term care; and the
                          growth in the number of patients served is criticized even though hospice is gaining
                          national acceptance as an end-of-life option for care.

                          HAA believes that hospice services should not be denied to eligible NF residents,
                          regardless of income status. While we would not support the elimination of the nursing
                          home benefit, the recommendation to reduce Medicare payments for hospice patients
                          living in NF is perhaps valid and HAA wholeheartedly supports further study and
                          analysis in order to develop a reimbursement formula that accurately reflects the costs
                          of hospice services. More importantly, it is clear from the study that the hospice
                          industry must acknowledge, accept, and act upon its responsibilities in the delivery of
                          comprehensive hospice services.
HAA looks forward to working with OIG to clarify the utility of this report. We are
committed to activities that ensure Medicare and Medicaid monies for hospice care are
well spent and Medicare beneficiaries who are terminally ill receive appropriate, quality
hospice care.

Please do not hesitate to call if you have any questions regarding these comments. I can
be reached at 2021546-4759.


Sincerely,


Diane H. Jones
Executive Director




Enclosure
                                Hospice Association    of America


                            EXECUTIVE                 SUMMARY
                         Office of the Inspector General Report on 

           Hospice Patients in Nursing Homes: Eligibility, Services, and Growth 


OVERVIEW
HAA believes that while the report begins to identify some of the problems inherent with the
hospice nursing home benefit, including issues of scope, intensity of services, and reimbursement,
the study is generally misdirected and fails to recognize the distinction between hospice and other
health care services. We would also be able to understand better the conclusions if the report had
included the questions posed during interviews as well as the position of those being interviewed.

BACKGROUND
When the hospice “nursing home benefit” was added to the Medicare hospice benefit in 1986, 

hospice providers developed an appropriate model of hospice care for terminally ill patients who 

reside in a nursing facility (NF). The model, which has been used by the Health Care Financing 

Administration for state surveyor training, articulates three principles: 1) the NF is considered to 

be the patient’s home; 2) the NF’s staff are the patient’s extended family; and 3) the same staff 

are members of the expanded hospice team. (Used in this context, “family” refers to person(s) 

who play a significant role in the patient’s life. While NF staff do not replace the patient’s own 

family members, they provide daily care and caring over extended periods of time, and in effect, 

become significant in the patient’s life.) The Medicare hospice conditions of participation define 

the unit of care as the patient and family. 


FINDINGS 

Response to eligibility and length-of-stay 

For patients with a diagnosis other than cancer, medical reviewers were asked to use a tool 

developed by the National Hospice Organization (NHO) in conjunction with HAA entitled 

Medical Guidelines for Determining Prognoses in Selected Non-Cancer Diseases. The guidelines 

were developed as a result of problems with inaccurate prognostications. HAA believes that it is 

inappropriate to use the tool to assess the appropriateness of patients enrolled in hospice prior to 

the publication of the guidelines. 


Response to hospice services received by hospice NF patients
Statutory language defines the patient and family as the unit of care, not just the patient. It would
have been instructive, and more comprehensive, had the inspections and discussions included
services provided to the family, including the “nursing home family.”

The study also raised the question of whether NF staff should be providing hospice care in
addition to long term care. HAA believes another study would be more appropriate to determine
what and how other health care providers should be caring for terminally ill patients. The
interface between hospice and NF must be examined in order to ensure a “good death” for all
who are terminally ill.

                                                  1
                                                                                        -
Response to the issue of growth of hospice services in NF
Currently only about 15%-l 7% of people in the US who die of disease-related causes are
receiving hospice care. Access to a cost effective, humane, and compassionate approach to care
for terminally ill patients should not be limited because the industry is growing too fast.


RECOMMENDATIONS

HAA believes that hospice services should not be denied to eligible NF residents, regardless of
income status. HAA agrees that the hospice NF program should be evaluated with a focus on
obtaining valid data related to costs. We also recommend that any legislation: 1) disconnect
hospice payments from Medicaid room and board payments; 2) require studies of hospice nursing
home programs to determine costs, scope, and intensity of services provided to hospice nursing
home patients as compared to hospice home care patients; and 3) adjust Medicare payments for
hospice services to nursing home patients according to verifiable, accurate data.




                                               2

                          Hospice Association    of America Comments

           Hospice Patients in Nursing Homes: Eligibility,       Services, and Growth

INTRODUCTION
When the hospice “nursing home benefit” was added to the Medicare hospice benefit in 1986, 

hospice providers developed an appropriate model of hospice care for terminally ill patients who 

reside in a nursing facility (NF). The model, which has been used by the Health Care Financing 

Administration for state surveyor training, articulates three principles: 1) the NF is considered to 

be the patient’s home; 2) the NF’s staff are the patient’s extended family; and 3) the same staff 

are members of the expanded hospice team. (Used in this context, “family” refers to person(s) 

who play a significant role in the patient’s life. While NF staff do not replace the patient’s own 

family members, they provide daily care and caring over extended periods of time, and in effect, 

become significant in the patient’s life.) The Medicare hospice conditions of participation define 

the unit of care as the patient and family. It is within this framework that the Hospice Association 

of America (HAA) will base its comments on the draft report, “Hospice Patients in Nursing 

Homes: Eligibility, Services, and Growth,” prepared by the Office of the Inspector General 

(OIG). 


There is little doubt that some hospice providers, despite having developed a conceptual 

framework for working with NF’s, have been less than successful in implementing their NF 

programs. There is also general agreement that the hospice NF benefit should be protected from 

abuse, waste, and fraud. Both of these facts support active and ongoing inspections and the 

development of remedies to ferret out fraud and abuse as well as end any waste of Medicare 

dollars. However, HAA believes that all terminally ill Medicare beneficiaries have the right to 

freely access hospice care at the end of their lives. Equal access means providing the full scope 

and intensity of hospice services that are timely, appropriate, and professionally and 

compassionately delivered, regardless of the setting. 


COMMENTS 

Issue:     Inspection and discussion was limited to services provided to the patient. 

Comment:   Since statutory language defines the patient and family as the unit of care, it is 

unclear why the OIG’s inspections and discussions were limited to services provided only to the 

patient. It would have been instructive, and more comprehensive, had the inspections and 

discussions included services provided to the family, including the “nursing home family.” 

Coordination of care and psychosocial support are hospice services delivered both to family 

members as well as interdisciplinary team members. Family members are often dealing with a 

myriad of psychosocial issues when a loved one is placed in a NF or, as in the majority of cases 

under inspection, when the NF resident becomes terminally ill. In addition, NF staff must be 

included in developing the plan of care as well as receiving hospice support in caring for a 

terminally ill patient. When measuring hospice services, it would seem that those provided to 

family members should be taken into consideration. 


Issue:        Definition of “services.” 

Comment:      From the report and the tables in the report it appears as though “services” are 

being defined only as hospice visits using the methodology of inspecting hospice records and 



                                                  3
conducting interviews. Since the constellation of hospice “services” involves comprehensive 

interdisciplinary coordinating activities, it would seem to be important to inspect all aspects of 

the delivery of hospice services. Inspection of hospice services should include telephone 

consultations, visits, and communications with all family members as well as members of the 

interdisciplinary team who deal with these issues. 


Issue:         Medical review contractor was instructed to determine whether NF services to 

patients changed after election of hospice. 

Comment:       NF services are not being inspected, hospice services are. Section 2082A, “Election 

of Hospice Benefit by Resident of a Skilled Nursing Facility (SNF), Nursing Facility (NF), 

Intermediate Care Facility for the Mentally Retarded (ICF/MR), or Non-certified Facility,” states: 


       The SNF/NF Conditions of Participation are applicable to all of the residents in
       a SNF/NF facility. Neither the statute nor the regulations setting out SNF/NF
       requirements exempts hospice patients in a SNF/NF from those regulations.

It is unclear why the medical review contractor would be asking if NF services to patients 

changed after election of hospice. Perhaps a better question to ask is if the NF hospice patient 

received additional services from the hospice after election of the hospice benefit. 


Issue:         Medical review contractor instructed to determine if the services provided by the 

hospice staff could have been provided by the NF staff 

Comment:       When Congress enacted the hospice benefit, it defined the concept as a specific 

constellation of care, including services that can only be provided by hospice employees with 

professional management responsibilities and an interdisciplinary team of skilled professionals. 

It is unclear why the medical review contractor would be instructed to determine if hospice 

services “could have been provided by the NF staff.” 


If the point is to determine whether NF should be providing hospice care in addition to long term 

care, another study would be more appropriate. The Robert Wood Johnson Foundation’s 

SUPPORT (Study to Understand Prognoses and Preferences for Outcomes and Risks for 

Treatments) project confirmed substantial shortcomings in care for seriously ill and dying 

hospitalized adults. Indeed, considerable national attention and resources are currently being 

directed at end-of-life issues and care. The interface between hospice and NF must be examined 

in order to ensure a “good death” for all who are terminally ill, and HAA would be pleased to 

participate in any research with OIG and others to reach this goal. 


Issue:          OIG inspectors spoke with 20 out of 22 hospice providers and 79 NF providers. 

Comment:        The report does not indicate the total number of NF providers, nor does it include 

the interview protocol. This raises a number of questions. Did the discussions involve only one 

or more than one NF and hospice provider per facility? It would be instructive to know how 

many actual NF were involved in the inspection rather than just the number of NF hospice 

patients. This is based on our assumption that the larger the number of hospice patients in any 

one facility, the more likely it is that the hospice philosophy and concept of care would be 

integrated into the NF culture. It would therefore be helpful to know the concentration of hospice 

patients in each NF, including the average and median number of hospice patients per facility in 



                                                 4
order to better evaluate the findings. It would also be helpful to know if the findings were 

weighted because discussions were held with more than one provider from each facility. 


Issue:          In some cases the records showed that patients did have a terminal condition but 

were stable with little sign of deterioration or decline. 

Comment:        How is “terminal” defined by the medical reviewers? If a patient has a terminal 

condition with a life expectancy of six months or less, the patient is eligible to elect the Medicare 

hospice benefit, regardless of how long the patient lives or how stable the condition is. Hospice 

patients can stabilize for a period of time with hospice care and still be considered terminally ill. 


Issue:        For patients with a diagnosis other than cancer, medical reviewers were asked to
use the National Hospice Organization’s Medical Guidelines for Determining Prognoses in
Selected Non-Cancer Diseases.
Comments:       (1) We were pleased that the report notes the medical guidelines were not available
to hospices when some of the patients being reviewed elected the hospice benefit. Was this taken
into consideration when the medical reviewers made their determinations? The guidelines were
developed as a result of problems with inaccurate prognostications; it is inappropriate to use the
tool developed to correct the problems to assess patients enrolled in hospice prior to its
publication.
                (2) Seventy-three out of the 200 sampled patients had one of the four diseases
covered by the guidelines. What were the diagnoses of the remaining 127 patients and what
criteria were used to evaluate their records?

Issue:          As a result of patients being ineligible for the hospice benefit at the time of their 

election, the average length-of-stay for these patients is significantly longer than patients found 

eligible for hospice care. 

Comment:        Did the study take into consideration the difference in lengths-of-stay between 

cancer and non-cancer patients? The “art” and “science” of prognostication are both 

underdeveloped and unrefined for non-cancer diseases, the course of the diseases are more 

unpredictable, and the majority of hospice NF patients have non-cancer diagnoses. The end result 

is longer lengths-of-stay for these patients than patients with cancer diagnosis. 


Issue:          The inspection found that the average length-of-stay for NF hospice patients was 

significantly higher than data recently released by NH0 (181 days vs. 56.3 days). 

Comments:       (1) Why is there more than a three-fold difference in the lengths-of-stay between 

OIG and NHO? Does it call into question the measurement differences between the OIG sample 

or NHO’s survey? 

                (2) What is the average length-of-stay for home-based patients in the hospices
included in the study?

Issue:         NF hospice patients receive nearly 46% fewer nursing and aide services than 

hospice patients living at home 

Comments:      (1) The report appears to use “visits” interchangeably with “services” (see earlier 

comment on this subject). 

               (2) There is no information regarding hospice interactions to coordinate the plans
of care with NF staff, which is an important component of hospice care in a NF.


                                                  5
                (3) Was an evaluation of the types of nursing visits conducted? The fewer number
of nursing visits could be related to NF not using the hospice R.N. on-call availability as
frequently as home-based hospice patients and families. This information would be important
when determining any rate adjustments for the NF hospice program.
                (4) Hospice is the only Medicare provider required to provide volunteer services,
even though they are not reimbursable. Because of this, volunteer support, such as visits, phone
calls, running family errands, and providing services to family members, are a vital component
of hospice care and should be included in any inspection of hospice.

Issue:          Table 2 compares medical reviews        of NF hospice patients and preliminary   results 

of OIG national sample of hospice patients. 

Comment:        Why not compare medical reviews         of NF hospice patients to the sampled hospices 

non-NF patients? There is no information about          practice patterns to determine if the sampled 

hospices practiced the same or differently in NF        and home settings. 


Issue:          The report states, “One out of eight nursing homes we contacted claimed that, in 

all too many cases, hospices are not providing these services [additional support for nursing home 

staff, post death bereavement, family support, pain management, and minimal disruption to the 

daily routine] to nursing home patients.” 

Comments:        (1) This is speculative, not empirical evidence. 

                (2) How were nursing and aide visits defined and counted?
                (3) “Services” were not measured, nursing and nurse aide “visits” were the only
elements included in the study which concluded that 46% fewer “services” were provided (see
earlier comment on this subject).
                 (4) Were the discussions conducted with equivalent staff in each NF? What
controls were in place to ensure against bias during the interviews?

Issue:           Three out of four nursing home patients received only routine nursing and aide 

visits. 

Comment:         The inspection was designed to look only at routine hospice care, so the meaning 

of this conclusion is unclear. 


Issue:            The remaining one in four patients received additional services, which the report 

characterizes as services NF staff could have provided. 

Comment:          We are pleased that the report acknowledges some of the medical interventions by 

hospice reflect care options that are embodied in the hospice philosophy. However, it is unclear 

what purpose is served in stating that NF staff could have provided the same services as the 

hospice. Hospice services are not interchangeable with NF services. The examples given of care 

provided to NF hospice patients by hospice staff reflect the unique constellation of disciplines, 

skills, perspective, and problem-solving     abilities hospice brings to the terminally ill patient and 

family. If the NF (or any other provider) could (or would) provide hospice services as defined 

by the Medicare hospice conditions of participation, then the hospice concept and philosophy of 

care would be fully integrated into the continuum of health care in the US. Until that time, 

hospice services must be delivered and reimbursed separately. 





                                                   6

Issue:          Overall costs for the care of hospice      patients   residing   in NF appears   to be 

substantially higher than for other hospice patients. 

Comment:        What factors were used to determine the    costs of other community-based  services 

for non-NF hospice patients that are funded by Medicare    and Medicaid? Additionally, data should 

be collected about expenditures for hospitalizations and   NF bed-hold costs while NF patients are 

hospitalized. 


Issue:          Potential growth in the number of hospice patients living in NF is enormous. 

Comment:        Currently only about 15%-l 7% of people in the US who die of disease-related 

causes are receiving hospice care. With the national spotlight on end-of-life issues, heightened 

emphasis on including end-of-life care in medical education, a prohibition of using federal dollars 

to fund physician-assisted  suicide, the aging of “baby boomers”, and increased integration of the 

delivery of health care, it can be expected that hospice care, including hospice care provided to 

NF patients, will continue growing at a fairly rapid rate. Access to a cost effective, humane, and 

compassionate approach to care for terminally ill patients should not be limited. 


Issue:         The report states that hospices have offered to reduce NF staff time for hospice 

patients. 

Comment:       This comment is located under the section “Nursing Home Market” and is 

addressing marketing to NF providers. The report earlier stated under “Three out of four nursing 

home patients received only routine nursing and aide visits. Nursing home administrators that we 

contacted are beginning to realize that patients in their facilities may not be getting the services 

hospices said they would provide. Hospices promise additional support for nursing; home staff. 

. .” The hospice regulations state: “substantially all core services must be routinely provided 

directly by hospice employees and cannot be delegated to the SNF/NF.” Hospices should be 

promising and providing additional support for nursing home staff. 


Issue:          OIG recommendation     to eliminate or reduce Medicare or Medicaid payments for 

hospice patients living in NF 

Comment:        HAA agrees that the hospice NF program should be evaluated with a focus on 

obtaining valid data related to costs. HAA also recommends that any legislation: 1) disconnect 

hospice payments from Medicaid room and board payments; 2) require studies of hospice nursing 

home programs to determine costs, scope, and intensity of services provided to hospice nursing 

home patients as compared to hospice home care patients; and 3) adjust Medicare payments for 

hospice services to nursing home patients according to verifiable, accurate data. 

